C@OCKLE

Legal Briefs

2311 Douglas Street E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-465
PETER BRET CHIAFALO, ET AL.,
Petitioners,
v.
STATE OF WASHINGTON,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE PUBLIC CITIZEN IN SUPPORT
OF RESPONDENT in the above entitled case. All parties required to be served have been served by third-party commercial
carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
SCOTT L. NELSON
Counsel of Record
ALLISON M. ZIEVE
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
snelson@citizen.org

Attorneys for Amicus Curiae

Subscribed and sworn to before me this 7th day of April, 2020. |
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

     

0. thos Oudiaw-h. Bhle

Notary Public 7 Affiant Te

 

 

A GENERAL MOTARY-State of Mabraska
RENEE J, GOSS
| My Comm. Exp. September 5, 2023 ยง

 
L. Lawrence Lessig

Equal Citizens

12 Eliot St.

Cambridge, MA 02138

lessig@law. harvard.edu

617-496-1124

Counsel of Record for Petitioners Peter Bret Chiafalo, et al.

Noah Guzzo Purcell

Office of the Attorney General

1125 Washington Street, SE

Olympia, WA 98501

noahp@atg.wa.gov

360-753-2536

Counsel of Record for Respondent State of Washington
